 

COMMONWEALTH of VIRGINIA

Office of the Attorney General

Mark R. Herring 202 North Ninth Street
Attorney General Richmond, Virginia 23219
804-786-7240

FAX 804-371-0200

theytens@oag.state.va.us

November 4, 2019

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk

One First Street, N.E.

Washington, D.C. 20543

Re: Passaro v. Commonwealth, No. 19-565
Dear Mr. Harris:

On October 29, 2019, the petition for a writ of certiorari in the above-
referenced case was filed. Our response is currently due on November 29, 2019. On
account of our current workload, we respectfully request a thirty-day extension of
time, until December 30, 2019, to file the response brief.

We thank the Court for its consideration.

Very truly yours,

’ lob, by

l
Toby J. Heytens
Solicitor General of Virginia
Counsel of Record for Respondent

ce: Pratik Arvind Shah, Esquire
Counsel for Petitioner
